Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

February 22, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: United States v. Gary, Case No. 20-444
Dear Mr. Harris,
This letter confirms respondent’s consent to the filing of any and all
amicus briefs at the merits stage.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Respondent
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

